Executive Report
Return to the USDOJ/OIG Home Page
United States Marshals Service Annual Financial Statement
Fiscal Year 1998
Report No. 99-31September 1999Office of the Inspector General
COMMENTARY AND SUMMARY
The United States Marshals Service (USMS) is a component of the U.S Department of Justice.  Its mission is to protect the Federal courts and ensure the effective operation of the Federal judicial system.  The USMS operations fall into four primary lines of business including: investigation and prosecution of criminal offenses; legal representation, enforcement of Federal laws, and defense of interests; detention and incarceration; and protection of the Federal judiciary and improvement of the justice system.  The USMS is organized into four operating divisions and five administrative divisions that support its mission.  The operating divisions are the U.S. Marshals and Districts, the Judicial Security Division, the Prisoner Services Division and the Investigative Services Division.  The administrative divisions include the Management and Budget Division, the Human Resource Management Division, the Business Services Division, the Executive Services Division and the Justice Prisoners and Alien Transportation System.
This audit report contains the Annual Financial Statement of the USMS for the fiscal year ended September 30, 1998.  The audit was performed by PricewaterhouseCoopers LLP, and resulted in a disclaimer of opinion on the FY 1998 financial statements.  The auditors were unable to substantiate opening account balances; amounts reported for intragovernmental accounts receivables, related revenues and the resulting increase in USMS's available budget authority; and accounts payable, related expenses, unexpended appropriations and appropriations used.  Additionally, the auditors noted that weaknesses in the general and application controls of the USMS's Standardized Tracking Accounting and Reporting Systems (STARS) prevented assurance that program and data files were protected from unauthorized access or modifications.  The USMS also received a disclaimer of opinion on its FY 1997 financial statements (Office of the Inspector General Report No. 98-21).
The USMS noted as part of its "Management Overview" that Year 2000 implications have been assessed for all mission critical systems and that the systems are compliant.  The USMS non-mission critical systems are currently being tested.  The Office of the Inspector General is unable to provide any assurance as to whether USMS systems will be compliant or that the USMS is at minimal risk.
For FY 1998, new reporting formats as required by Office and Management and Budget Bulletin No. 97-01, Form and Content of Agency Financial Statements, were implemented.  For FY 1997, the USMS prepared a statement of financial position and statement of operations and changes in net position.  For FY 1998, the USMS prepared a balance sheet, statement of net cost, statement of changes in net position, statement of budgetary resources, and statement of financing.  Accordingly, comparative financial statements are not presented or required this year.